No. ______
FOUNDATION FOR INDIVIDUAL RIGHTS IN EDUCATION, ET AL.,
Petitioners,
v.
VICTIM RIGHTS LAW CENTER, ET AL.,
Respondents.
CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I, Charles J. Cooper a member of the Supreme Court Bar, certify that the PETITION FOR A WRIT OF
CERTIORARI, in the above entitled case complies with the typeface requirements of Supreme Court Rule 33.1(b), being prepared in Century Schoolbook
12 point for the text and 10 point for the footnotes, and that this brief complies
with the word limitation of Supreme Court Rule 33.1(g)(x) (2019), containing
8,963 words, excluding the parts that are exempted by Supreme Court Rule
33.1(d).

Date: July 19, 2021

/s/Charles J. Cooper
Charles J. Cooper

